TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2012 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                           June 20, 2012

                            Reference Number: 2012-30-066




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY AUDIT                     against Illegal Tax Protester designations
OF COMPLIANCE WITH LEGAL                             because it was concerned that some taxpayers
GUIDELINES PROHIBITING THE USE OF                    were being permanently labeled as Illegal Tax
ILLEGAL TAX PROTESTER AND                            Protesters even though they had subsequently
                                                     become compliant with the tax laws. The label
SIMILAR DESIGNATIONS
                                                     could bias IRS employees and result in unfair
                                                     treatment.
Highlights                                           WHAT TIGTA FOUND

Final Report issued on June 20, 2012                 The IRS has not reintroduced past Illegal
                                                     Tax Protester codes or similar designations
Highlights of Reference Number: 2012-30-066          on taxpayer accounts. However, TIGTA
to the Internal Revenue Service Deputy               found that out of approximately 4.2 million
Commissioner for Services and Enforcement            records and cases, there were 16 instances
and Deputy Commissioner for Operations               in which 16 employees had referred to
Support.                                             taxpayers as “Tax Protester,”
                                                     “Constitutionally Challenged,” or other
IMPACT ON TAXPAYERS                                  similar designations in case narratives on
                                                     the computer systems analyzed.
Congress enacted the IRS Restructuring and
Reform Act of 1998 (RRA 98) Section 3707 to          WHAT TIGTA RECOMMENDED
prohibit the IRS from labeling taxpayers as
Illegal Tax Protesters or any similar                TIGTA made no recommendations in this report
designations. However, a few IRS employees           because the IRS has long disagreed with our
continue to refer to taxpayers by these              determination that in order to comply with
designations in case narratives. Using Illegal       RRA 98 Section 3707, IRS employees should
Tax Protester or other similar designations may      not designate taxpayers as Illegal Tax
stigmatize taxpayers and may cause employee          Protesters or similar designations in case
bias in future contacts with these taxpayers.        histories. Moreover, TIGTA has previously
                                                     elevated this disagreement to the Assistant
WHY TIGTA DID THE AUDIT                              Secretary for Management and Chief Financial
                                                     Officer of the Department of the Treasury, but it
This audit was initiated because TIGTA is            has yet to be resolved.
required to annually evaluate compliance with
the prohibition against using Illegal Tax            Although TIGTA made no recommendations in
Protester or similar designations. Prior to          this report, IRS officials were provided with an
enactment of the RRA 98, the IRS used the            opportunity to review the draft report. IRS
Illegal Tax Protester Program to identify            management did not provide any report
individuals and businesses using methods that        comments.
were not legally valid to protest the tax laws.
IRS employees referred taxpayers to the Illegal
Tax Protester Program when their returns or
correspondence contained specific indicators of
noncompliance with the tax law, such as the
use of arguments that had been repeatedly
rejected by the courts.
The purpose of our audit was to determine
whether the IRS complied with RRA 98
Section 3707 and internal guidelines that
prohibit officers and employees from referring to
taxpayers as Illegal Tax Protester and similar
designations. Congress enacted the prohibition
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 20, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2012 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 201230008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section 3707 and
 its own internal guidelines that prohibit IRS officers and employees from referring to taxpayers
 as Illegal Tax Protesters or any similar designations. The Treasury Inspector General for Tax
 Administration is required under Internal Revenue Code Section 7803(d)(1)(A)(v) to annually
 evaluate the IRS’s compliance with the provisions of RRA 98 Section 3707. The review is part
 of our Fiscal Year 2012 annual audit plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials with an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Frank J. Dunleavy, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations),
 at (213) 894-4470 (Ext. 128).



 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                       Fiscal Year 2012 Statutory Audit of Compliance With Legal
                    Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                               Designations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File ................... Page 3
          In a Few Instances, Employees Used Illegal Tax Protester or Similar
          Designations in Case Narratives ................................................................... Page 4
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Are in Place to Address Tax Compliance Issues .................... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measure ................................................................ Page 12
          Appendix V – Glossary of Terms ................................................................. Page 13
            Fiscal Year 2012 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                    Designations




                          Abbreviations

IRS                 Internal Revenue Service
RRA 98              Restructuring and Reform Act of 1998
TIGTA               Treasury Inspector General for Tax Administration
                    Fiscal Year 2012 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File2 and instructs IRS employees to disregard any such designation not located on the
Individual Master File.
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. IRS employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. The concern was that this label could bias IRS employees
and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)                               The Treasury Inspector General
requires the Treasury Inspector General for Tax                           for Tax Administration is
Administration (TIGTA) to annually evaluate IRS                         required to annually evaluate
compliance with the prohibition against using the                         IRS compliance with the
Illegal Tax Protester or any similar designations. This                prohibition against using Illegal
                                                                         Tax Protester or any similar
is our fourteenth review since Fiscal Year 1999.                                designations.
These reviews have identified areas for improvement
to help the IRS comply with the Illegal Tax Protester
designation prohibition.
This review was performed in the Office of the National Taxpayer Advocate in
Washington, D.C.; the Office of Appeals in St. Paul, Minnesota; the Small
Business/Self-Employed Division in Florence, Kentucky; and the Wage and Investment Division


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
                                                                                                              Page 1
                 Fiscal Year 2012 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



in Atlanta, Georgia, during the period November 2011 through March 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                  Fiscal Year 2012 Statutory Audit of Compliance With Legal
               Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                          Designations




                                 Results of Review

The TIGTA made no new recommendations in this report because the IRS has long disagreed
with our determination that in order to comply with RRA 98 § 3707, IRS employees should not
designate taxpayers as Illegal Tax Protesters or similar designations in case histories. Moreover,
the TIGTA has previously elevated this disagreement to the Assistant Secretary for Management
and Chief Financial Officer of the Department of the Treasury, but it has yet to be resolved.
Based on the steady decline in the use of Illegal Tax Protester or similar designations by IRS
employees in recent years, and in the interest of conserving resources, we revised our
methodology for evaluating the use of these designations on the multiple computer systems used
by IRS employees. We will continue to review the Individual Master File and related systems
annually, as required by RRA 98, and will review other IRS systems on a periodic basis. A list
of the IRS systems we reviewed is included in Appendix I.

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the Master
File to accelerate collection activity for taxpayers who were delinquent in filing tax returns or
paying their taxes. These indicators were also intended to alert employees that they might
encounter problems when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
      Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
      Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed these designation codes from the Master File
as required by the law. Based on our analysis of approximately 1.2 million taxpayer records that
had been coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.


                                                                                             Page 3
                 Fiscal Year 2012 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



In a Few Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
During the period October 2010 through September 2011, we found 16 instances, out of
approximately 4.2 million records and cases, in which 16 employees had labeled taxpayers as
“Tax Protester,” “Constitutionally Challenged,” or other similar designations in case narratives
on the following computer systems:
      Appeals Centralized Database System: A review of approximately 3.73 million
       opened/closed Appeals function narrative comment records identified 13 cases in which
       13 employees used Illegal Tax Protester or a similar designation when referring to
       specific taxpayers in the case narratives.
      Taxpayer Information File: A review of 356,505 open records identified one case in
       which ************************************1**************************
       ****************************1******************************.
      Taxpayer Advocate Management Information System: A review of 67,684 open records
       identified two cases in which two empoyees used an Illegal Tax Protester designation
       when referring to a specific taxpayer in the comment narrative field.
We believe the 16 instances identified in the systems previously listed are prohibited by law.
Figure 1 contains the number of Illegal Tax Protester or similar designations identified in IRS
computer systems’ case narratives during our Fiscal Years 2011 and 2012 reviews.




                                                                                           Page 4
                      Fiscal Year 2012 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                              Designations



       Figure 1: Illegal Tax Protester and Similar Designations in Case Narratives
                                        Fiscal Year 2011 Review                  Fiscal Year 2012 Review

      Computer System                        Protester        Similar                  Protester      Similar
                             Employees                                    Employees
                                            Designation     Designation               Designation   Designation
                              Involved                                     Involved
                                               Used            Used                      Used          Used

     Appeals Centralized
                                33              23                14        13          11                 2
      Database System

          Taxpayer
                                1                1                0          1           1                 0
       Information File

  Taxpayer Advocate
                               Not             Not             Not
Management Information                                                       2            2                0
                             Reviewed        Reviewed        Reviewed
       System
Source: Case narratives found on various IRS computer systems and the TIGTA report entitled Fiscal Year 2011
Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
Designations.3

We also identified 12 case narratives in which 11 employees made references about the
taxpayers’ actions (e.g., “…succumbing to a tax shelter/protester scheme”), or the employee
begins the narrative stating “Constitutionally Challenged/Frivolous Filer Arguments.” We agree
with the IRS that merely making references to a taxpayer’s actions does not constitute a
designation prohibited by statute. However, we are concerned these references could become, or
be considered, permanent labels that could subsequently stigmatize taxpayers in future contacts
with the IRS. We did not include any instances in which employees were only documenting
statements made by a taxpayer and/or his or her representative because quoting a taxpayer’s
self-designation as an Illegal Tax Protester is not prohibited by the law.
The statute states that “officers and employees of the Internal Revenue Service shall not
designate taxpayers as Illegal Tax Protesters (or any similar designation).” It further specifies
that existing designations in the Master File must be removed and any other designations made
before the effective date of the statute, such as those on paper records that have been archived,
must be disregarded. Senate Committee on Finance Report 105-174 (dated April 22, 1998),
related to the RRA 98 § 3707 provision, stated the Committee was concerned that taxpayers
might be stigmatized by a designation as an “Illegal Tax Protester.” Based upon the language of
the statute and the Senate Committee Report, we believe IRS officers and employees should not
label taxpayers as Illegal Tax Protesters or similar designations in any records, which include
paper and electronic case files. Officers and employees should not designate taxpayers as such
because a designation alone contains a negative connotation and appears to label the taxpayer.




3
    TIGTA, Ref. No. 2011-30-040 (Apr. 2011).
                                                                                                           Page 5
                   Fiscal Year 2012 Statutory Audit of Compliance With Legal
                Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                           Designations



IRS management disagrees that employee use of Illegal Tax Protester or similar designations in a
case narrative is a potential violation of the law. We continue to believe that the use of these
designations in case narratives may stigmatize taxpayers and cause employee bias in future
contacts with these taxpayers. Electronic case narratives are available to other IRS employees
for future reference and may affect the opinions and actions of employees working the taxpayers’
cases.
In its response to our Fiscal Year 2003 report, 4 the IRS disagreed with our determination that to
comply with this provision, IRS employees should not designate taxpayers as Illegal Tax
Protesters or similar designations in case histories. As a result, we elevated this disagreement to
the Assistant Secretary for Management and Chief Financial Officer of the Department of the
Treasury, but have not yet received a response. Even though IRS management continues to
disagree with our interpretation of the law, they have taken a conservative approach by
implementing a policy that prohibits employees from using Illegal Tax Protester or any similar
designation. In August 2007, IRS management issued a memorandum to all employees
reminding them of this policy. In Fiscal Year 2008, guidance in the form of Alerts and
memorandums were issued to employees and portions of the Internal Revenue Manual were
updated5 to reflect the prohibition on using Illegal Tax Protester or any similar designation. IRS
management still continues to reinforce its policy by issuing Alerts and ensuring that Internal
Revenue Manual updates retain reminders to employees regarding the prohibition on the use of
Illegal Tax Protester or similar designations.

Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Are in Place to Address Tax Compliance Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. Examples are:
       The Frivolous Return Program that handles taxpayers who file tax returns based on some
        type of frivolous argument that justifies payment of little or no income tax. This includes
        filing a tax return claiming no income because paying taxes is voluntary or claiming to be
        a citizen of a State but not a citizen of the United States.
       The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
       The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
        taxpayers who have assaulted and/or threatened IRS employees.


4
  TIGTA, Ref. No. 2003-40-098, Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines
Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2003).
5
  Internal Revenue Manual 5.19.1 (Nov. 2010) and 21.5.1 (Aug. 2011).
                                                                                                      Page 6
                 Fiscal Year 2012 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As a result, we believe that
prohibiting the use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.




                                                                                          Page 7
                    Fiscal Year 2012 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981 § 3707
and its own internal guidelines that prohibit IRS officers and employees from referring to
taxpayers as Illegal Tax Protesters or any similar designations. The TIGTA is required to
annually evaluate compliance with the prohibition against using Illegal Tax Protester or any
similar designations. Unless otherwise noted, our limited tests of the reliability of data obtained
from various IRS systems did not identify any errors. We tested the reliability of the data by
scanning the data received for blank, incomplete, illogical, or improper data. In addition, we
traced a judgmental sample for each data set to the source IRS files to ensure accuracy. To
accomplish the objective, we:
I.       Determined if the Illegal Tax Protester coding on the Master File2 was removed by
         reviewing all tax accounts coded for accelerated collection activity as of September 2011
         on the Business Master File and Individual Master File. We analyzed 1,222,785 Master
         File records that had been coded for accelerated collection activity.3
         We also matched our historic computer extract of approximately 57,000 taxpayers
         designated as Illegal Tax Protesters before the RRA 98 was enacted to our records that
         had been coded for accelerated collection activity to determine if any new common codes
         were being used to classify the taxpayers as Illegal Tax Protesters.
II.      Determined if employees were using Illegal Tax Protester or any similar designations
         within the Activity Code field on the Taxpayer Information File by securing a copy of the
         database and analyzing 356,505 open records with activity between October 2010 and
         September 2011.
III.     Determined if the IRS is using any Frivolous Return Program4 codes as replacements for
         Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
         Return Program and interviewing its Program Coordinator.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
3
  A Transaction Code 148 causes the accelerated issuance of a Taxpayer Delinquent Investigation or Taxpayer
Delinquent Account.
4
  The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary or claiming to be a citizen of a State but not a citizen of the United States.
                                                                                                             Page 8
                  Fiscal Year 2012 Statutory Audit of Compliance With Legal
               Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                          Designations



IV.     Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program and interviewing its Program Coordinator.
V.      Determined if the IRS Nonfiler Program is in compliance with the provisions established
        by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler Program and
        interviewing its Program Coordinators.
VI.     Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Appeals Centralized Database System by securing
        a copy of the database as of September 2011 and analyzing 3,734,707 open/closed
        Appeals function narrative comment records with activity between October 2010 and
        September 2011.
VII.    Determined if employees were using the Illegal Tax Protester or any similar designations
        within Embedded Quality Review System case narratives between October 2010 and
        September 2011 by extracting records from the Master File with Potentially Dangerous
        Taxpayer and Caution Upon Contact indicators between October 2008 and
        September 2011 and matching them to the Closed Examination database. We matched
        the resultant records to the Embedded Quality Review System.
VIII.   Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Taxpayer Advocate Management Information
        System by securing a copy of the database as of September 2011 and analyzing
        67,684 open narrative comment records with activity between October 2010 and
        September 2011.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls that ensure the reliability of the
data used for our analyses, including input validation. During our review, we tested the validity
of the data used for our analyses against the source, but we did not perform any specific testing
of data input controls. However, it should be noted that data from these same systems were used
during prior audits of Illegal Tax Protester designations and no significant data issues were
identified.




                                                                                            Page 9
                Fiscal Year 2012 Statutory Audit of Compliance With Legal
             Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                        Designations



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Robert Jenness, Audit Manager
William Tran, Lead Auditor
Kristi Larson, Senior Auditor
James Allen, Information Technology Specialist
Brian Hattery, Information Technology Specialist




                                                                                    Page 10
                Fiscal Year 2012 Statutory Audit of Compliance With Legal
             Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                        Designations



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, Performance, Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Technology Officer OS:CTO:SM:PO
   Chief, GAO/TIGTA/Implementation Branch SE:S:CLD:PSP:GTI
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 11
                      Fiscal Year 2012 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                              Designations



                                                                                  Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. While no recommendations were made in this
report, the TIGTA has made prior recommendations that continue to provide benefits. This
benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Actual; 16 taxpayers potentially affected (see page 4).

Methodology Used to Measure the Reported Benefit:
We reviewed:
          From the Appeals Centralized Database System,1 approximately 3.73 million open/closed
           Appeals function narrative comment records with history action dates between
           October 2010 and September 2011 and identified 13 taxpayer cases with narratives that
           used Illegal Tax Protester or a similar designation.
          From the Taxpayer Information File, 356,505 open records with history action dates
           between October 2010 and September 2011 and identified *************1********
           *******************************1************************************.
          From the Taxpayer Advocate Management Information System, 67,684 open records
           with history action dates between October 2010 and September 2011 and identified
           two taxpayer cases that used an Illegal Tax Protester designation in the narrative
           comment field.




1
    See Appendix V for a glossary of terms.
                                                                                           Page 12
            Fiscal Year 2012 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                    Designations



                                                                           Appendix V

                         Glossary of Terms

Appeals Centralized      Appeals function database system used by Appeals Officers,
Database System          Settlement Officers, managers, and technical analysts to track
                         case receipts, record case time, document case actions, and
                         monitor the progress of the Appeals function workload.
Business Master File     The IRS database that consists of Federal tax-related
                         transactions and accounts for businesses. These include
                         employment taxes, income taxes on businesses, and excise
                         taxes.
Campus                   The data processing arm of the IRS. The campuses process
                         paper and electronic submissions, correct errors, and forward
                         data to the Computing Centers for analysis and posting to
                         taxpayer accounts.
Embedded Quality         An IRS management tool used to assist managers in
Review System            identifying areas of strength and need in their employees’
                         individual performance as it relates to case activities.
Fiscal Year              A 12-consecutive-month period ending on the last day of any
                         month, except December. The Federal Government’s fiscal
                         year begins on October 1 and ends on September 30.
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Internal Revenue         A manual containing the IRS’s internal guidelines.
Manual
Master File              The IRS database that stores various types of taxpayer
                         account information. This database includes individual,
                         business, and employee plans and exempt organizations data.
Taxpayer Advocate        An electronic database and inventory control system used by
Management               Taxpayer Advocate Service employees.
Information System
Taxpayer Delinquent      A computer-generated printout indicating that the taxpayer’s
Account                  account has reached a delinquent status.


                                                                                      Page 13
            Fiscal Year 2012 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                    Designations



Taxpayer Delinquent    A computer-generated printout indicating that a taxpayer is
Investigation          delinquent filing a return.
Taxpayer Information   A file containing entity and tax data processed at a given
File                   campus for all Taxpayer Identification Numbers.




                                                                                    Page 14
